App.l
APPENDIX A

17CA1010 Mulcahy v Aspen Skiing 11-29-2018
COLORADO COURT OF APPEALS
Court of Appeals No. 17CA1010 Pitkin County District
Court No. 12CV97 Honorable Christopher G. Seldin,
Judge

Edward Lee Mulcahy, Jr.
Plaintiff-Appellant,
v.
Aspen Skiing Company Defendant-Appellee.

JUDGMENT AFFIRMED Division I Opinion by

JUDGE TERRY Taubman and Fox, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced November 29, 2018
Edward Lee Mulcahy, Jr., Pro Se

App.2
Tierney Lawrence, L.L.C., Edward T. Rainey, Denver,
Colorado, for Defendant-Appellee

f 1 Plaintiff, Edward Lee Mulcahy, Jr., appeals the
district court’s order granting summary judgment in
favor of defendant, Aspen Skiing Company (Skico). We
affirm.
LBackground
% 2 Mulcahy worked as a ski instructor at Skico until
he was fired. He filed a claim with the NLRB alleging,
among other things, that he was improperly
terminated because of his pro-union speech and
activities, including distributing a pro-union flyer.
Skico banned Mulcahy from all of its properties,
including public land that it leases. After the NLRB
proceedings were resolved, Skico’s ban of Mulcahy
remained in place.
*[[ 3 Acting pro se, Mulcahy filed a complaint against
Skico in county court, alleging that the ban against him
unconstitutionally restricted his free speech rights.
Mulcahy served the complaint by taping a copy of it to
a side door of Skico’s Aspen headquarters. He
accessed this side door from a public parking lot. He
was arrested for criminal trespass because of this
incident, but the charge was dropped nine months
later.

App.3

1f 4 Two weeks after he had attempted to serve the
county court complaint, Mulcahy filed the same
complaint, with the same accusations, in district court.
11 5 The case was then set for trial in district court.
Almost three years later, Mulcahy hired an attorney,
who prepared an amended complaint. The amended
complaint alleged, among other things, that Skico
committed the torts of abuse of process and malicious
prosecution, claiming that Skico had maliciously
initiated the criminal trespass charges against him,
knowing they were baseless.
f 6 These claims were dismissed on Skico’s motion.
Mulcahy’s only surviving claim was that Skico’s ban
against him unconstitutionally restricted his right to
free speech under article II, section 10 of the Colorado
Constitution. On this claim, the court granted
summary judgment in part to each party. It enjoined
Skico from restricting Mulcahy’s access for reasonable
free speech purposes to public land that it leases.

II. Abuse of Process and Malicious Prosecution
1[ 7 Mulcahy contends that the court erred by

App.4
concluding that the abuse of process and malicious
prosecution claims in his amended complaint did not
relate back to the allegations of the original complaint
under C.R.C.P. 15(c), and were thus barred by the
two-year statute of limitations. We disagree.
A. Legal Standards
f 8 Because Mulcahy appears pro se, his pleadings
should be liberally construed. People v. Bergerud, 223
P.3d 686, 697 (Colo. 2010). Even so, pro se litigants
must adhere to rules of procedure applicable to
attorneys. Adams v. Sagee, 2017 COA133. 10. A pro se
litigant’s pleadings must not be conclusory. See Bd. of
Cty. Comm’rs v. Barday, 197 Colo. 519, 521, 594 P.2d
1057, 1058 (1979). They must allege sufficient facts for
a court to be able to judge whether the claims have
legal merit. See id.
f 9 We review de novo a district court’s dismissal of a
claim based on a statute of limitations defense. SMLL,
L.L.C. v. PeakNat’lBank, 111 P.3d 563, 564 (Colo. App.
2005). Under section 13-80- 102(l)(a), C.R.S. 2018, a
plaintiff must bring claims of malicious prosecution
and abuse of process within two years after the causes
of action accrue.
f 10 For statute of limitations purposes, a new claim
in an amended complaint relates back to the date of

App.5
the original complaint if the claim asserted in the
amended complaint “arose out of the conduct,
transaction, or occurrence set forth or attempted to be
set forth in the original” complaint. C.R.C.P. 15(c).
When a party asserts in an amended complaint a new
legal theory that is unsupported by factual claims
raised in the original complaint, the proposed claim
will not relate back to the original claim’s filing date.
See 27A Federal Procedure Pleadings and Motions §
62:335 (Lawyer’s ed. 1996), cited in Peters v. SmugglerDurant Mining Corp., 930 P.2d 575, 581 (Colo. 1997).
% 11 To determine whether a claim in an amended
complaint relates back, we consider whether a
reasonably prudent defendant ought to have
anticipated that other aspects of the same conduct,
transaction, or occurrence referenced in the original
complaint might be called into question. Liscio v.
Pinson, 83 P.3d 1149,1154 (Colo. App. 2003).
11 12 To state an abuse of process claim, the plaintiff
must allege the following elements: “(1) an ulterior
purpose in the use of judicial proceedings; (2) willful
actions by a defendant in the use of process that are
not proper in the regular conduct of a proceeding; and
(3) damages.” Hewitt v. Rice, 154 P.3d 408, 414 (Colo.
2007). “The essential element of an abuse of process
claim is the use of a legal proceeding in an improper
manner. Therefore, an improper use of the process

App.6
must be established.” Trask v. Nozisko, 134 P.3d 544,
554 (Colo. App. 2006) (citation omitted); see also
Restatement (Second) of Torts § 682 cmt. a (Am. Law
Inst. 1977) (Abuse of process is “not the wrongful
procurement of legal process or the wrongful initiation
of criminal or civil proceedings; it is the misuse of
process.”). An action merely brought for an ulterior
motive, or one brought knowingly upon an unfounded
claim, does not rise to the level of abuse of process.
Sterenbuch v. Goss, 266 P.3d 428, 439 (Colo. App. 2011)
(dismissing abuse of process claim because pleadings
merely alleged that an action was brought to harass or
bully, and was groundless).
f 13 A malicious prosecution claim must allege the
following elements: “(1) the defendant contributed to
bringing a prior action against the plaintiff; (2) the
prior action ended in favor of the plaintiff; (3) no
probable cause; (4) malice; and (5) damages.”
Thompson v. Md. Cas. Co., 84 P.3d 496, 503 (Colo.
2004). For a claim to be considered to have ended in
favor of the plaintiff, “the criminal prosecution must
be disposed of in a way which indicates the innocence
of the accused.” Allen v. City ofAurora, 892 P.2d 333,
335 (Colo. App. 1994). A dismissal in the interest of
justice upon motion of the prosecution is not a
favorable termination because such a termination does
not reach the merits of the case. Id. (citing Delany v.
Gerdon, 785 F. Supp. 1128, 1129 (E.D.N.Y. 1992)).

jj

App.7
B. Analysis
f 14 We conclude that Mulcahy’s abuse of process and
malicious prosecution claims, first mentioned in his
amended complaint, do not relate back to the original
complaint under C.R.C.P. 15(c) and are thus time
barred.
f 15 Mulcahy filed his original complaint in district
court on April 16, 2012. He filed his amended
complaint nearly three years later, on March 26, 2015.
The amended complaint alleged for the first time that
Skico engaged in conduct amounting to abuse of
process and malicious prosecution. He now contends
that this conduct was a part of a larger pattern of
conduct, described in his original complaint as
“corporate bullying.” Thus, he argues, his abuse of
process and malicious prosecution claims arose out of
conduct described in the original complaint and
therefore relate back to that complaint under C.R.C.P.
15(c). We disagree.
f 16 Skico complained to the police about Mulcahy’s
actions. Mulcahy describes those actions as his
attempt to serve Skico with his county court complaint
at Skico’s Aspen headquarters. The police charged
Mulcahy with criminal trespass, but the charge was
later dismissed on motion of the district attorney.
Setting aside the question of whether an abuse of

App.8
process or malicious prosecution claim can be brought
against a private citizen for merely contacting police to
complain about a neighbor’s actions, see Walker v. Van
Laningham, 148 P.3d 391, 394 (Colo. App. 2006); see
also Fappani v. Bratton, 407 P.3d 78, 82-83 (Ariz. Ct.
App. 2017), we conclude that the court did not err in
ruling that the claims did not relate back to the
original complaint.
If 17 The original complaint did not allege sufficient
facts to put Skico on notice of the possibility of an
abuse of process claim. See Barday, 594 P.2d at 1058.
Though Mulcahy alleged that Skico engaged in
“corporate bullying” in the original complaint, such
vague phrasing fails to describe an identifiable legal
claim and could not provide Skico with the requisite
notice of an abuse of process claim. See Liscio, 83 P.3d
at 1154.
If 18 Similarly, the “corporate bullying” reference in
Mulcahy’s original complaint did not allege sufficient
facts to put Skico on notice of the possibility of a
malicious prosecution claim. See Barday, 594 P.2d at
1058. The original complaint did not mention the
trespass charge or any prior legal action; it did not
allege facts relating to a lack of probable cause,
malice, or damages; and it did not allege that the
trespass charge had been dismissed in his favor. See
Thompson, 84 P.3d at 503. The dismissal of the charge
by the district attorney in the interests of justice would
not have constituted a dismissal in favor of Mulcahy,

App.9
as is required for a malicious prosecution claim. See
Mm. 892 P,2d at 335 (action for malicious prqsecutiqn
requires disposition of criminal prosecution in manner
that indicates innocence of the accused),
f 19 We conclude that the trial court did not err in
dismissing the claims of abuse of process and
malicious prosecution in Mulcahy’s amended
complaint because those claims do not relate back to
the filing of the original complaint under C.R.C.P. 15(c)
and are thus time barred.
HI. Declaratory Judgment
f 20 Mulcahy argues that the trial court erred by
declining to rule on his motion for declaratory
judgment as to whether the pro-union flyer Mulcahy
distributed on Skico’s property constituted free speech
protected by article II, section 10 of the Colorado
Constitution. We disagree.
A.

Legal Standards

f 21 Mulcahy preserved this issue by filing three
motions for entry of a declaratory judgment.
f 22 Because the decision whether to enter a
declaratory judgment under section 13-51-110, C.R.S.
2018, and C.R.C.R 57(f) requires the exercise of the
court’s discretion, we review the court’s decision for

App.10
an abuse of discretion. Zab, Inc. v. Berenergy Coip.,
136 P.3d 252, 255 (Colo. 2006). A court abuses its
discretion when its ruling is (1) based on an erroneous
understanding or application of the law or (2)
manifestly arbitrary, unreasonable, or unfair. People v.
Esparza-Treto, 282 P.3d 471, 480 (Colo. App. 2011).
“The court may refuse to render or enter a declaratory
judgment or decree where such judgment or decree, if
rendered or entered, would not terminate the
uncertainty or controversy giving rise to the
proceeding.” § 13-51-110; C.R.C.P. 57(f).
B. Analysis
23 Before Mulcahy was fired, he distributed a
pro-union flyer in and around Skico’s property. Partly
in response, Skico banned Mulcahy from all of its
property, including public land that it leases.
Mulcahy filed a claim in district court that Skico’s ban
against him unconstitutionally restricted his free
speech under article II, section 10 of the Colorado
Constitution. On cross-motions for summary
judgment, the trial court enjoined Skico from banning
Mulcahy from public land that it leases. As a result,
Mulcahy was able to exercise his free speech rights on
that land.
f 24 Mulcahy now contends that if the trial court had

App.ll
declared that the flyer was free speech that was
protected by article II, section 10, then it would have
been clear that Skico’s banning of Mulcahy from its
property was retaliatory. According to Mulcahy, if the
ban had been considered retaliatory, then the court
would have enjoined Skico from banning him from its
leased public land, so that he would be free to enter
that public land generally, and not just for
the limited purposes of exercising his free speech
rights under article n, section 10.
If 25 Article II, section 10 of the Colorado Constitution
generally protects citizens against the infringement of
their free speech rights by governmental entities.
Skico is a private entity, not a governmental entity.
Even so, under Bock v. Westminster Mall Co., 819 P.2d
55, 60 (Colo. 1991), a private entity may become
subject to compliance with article n, section 10 if it is
“affected with a public interest” through a close
association with the state or with public property. The
issue before the trial court was whether Skico’s
operations on leased public land were “affected with a
public interest” under Bock and thus subject to
compliance with article II, section 10. The trial court
concluded that they were. It thus enjoined Skico from
banning Mulcahy from public land that it leases to the
extent that the ban would restrict Mulcahy’s
reasonable free speech there.

App.12
1f 26 Whether Skico’s ban was retaliatory has no
bearing on this analysis. And whether article II, section
10 would protect Mulcahy’s pro-union flyer from
interference by governmental entities generally is also
irrelevant. The issue was not whether Mulcahy’s flyer
constituted protected free speech under article n,
section 10, but whether Skico, in conducting
operations on public land, was the type of entity to
which article II, section 10 applies.
If 27 A declaratory judgment as to whether Mulcahy’s
pro-union flyer constituted speech protected by article
II, section 10 would not have terminated the
uncertainty as to whether Skico’s operations on public
land meant that Skico was subject to compliance with
that provision, and thus unable to restrict Mulcahy’s
free speech on that land. See § 13-51-110; C.R.C.P.
57(f).
If 28 Mulcahy’s brief appears to further contend that he
has a federal First Amendment retaliation claim under
42 U.S.C. § 1983 (2018). However, Mulcahy has not
shown how Skico acted under color of state law, as is
required for a 42 U.S.C. § 1983 claim. See Am. Mfrs.
Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50 (1999) (“Like
the state-action requirement of the Fourteenth
Amendment, the under- color-of-state-law element of §
1983 excludes from its reach ‘merely private conduct,

App.13
no matter how discriminatory or wrongful.’”) (citation
omitted); Moody v. Ungerer, 885 P.2d 200, 201 (Colo.
1994).
if 29 Mulcahy also contends that his pro-union flyer
constituted speech protected by Section 7 of the
National Labor Relations Act. To the extent this was
raised in his amended complaint, it was relevant only
to his unlawful employipent retaliation claim, which
was properly dismissed by the trial court as
pre-empted by the National Labor Relations Act.
if 30 Because there was no separate remedy available
to Mulcahy based on his assertion of free speech
rights, the court did not err in declining to issue a
declaratory judgment as to whether his flyer was
constitutionally protected free speech.
IV. Disqualification
If 31 Mulcahy next argues that the district court judge,
Judge Christopher Seldin, abused his discretion by
declining to disqualify himself. We disagree.
A Legal Standards
f 32 Mulcahy preserved this issue by twice moving to
disqualify Judge Seldin.
if 33 A trial judge’s decision whether to disqualify

App. 14
himself is discretionary and will not be reversed unless
an abuse of discretion is shown. Spring Creek
Ranchers Ass’n v. McNichols, 165 P.3d 244, 245 (Colo.
2007).
If 34 Motions for disqualification are governed by
C.R.C.P. 97. Disqualification is appropriate when the
motion and supporting affidavits allege sufficient facts
from which it may reasonably be inferred that the
judge is prejudiced or biased, or appears to be
prejudiced or biased, against a party to the litigation.
Johnson v. Dist. Court, 674 P.2d 952, 955-56 (Colo.
1984); see also People v. Schupper, 2014 COA 80M, If
57 (reviewing Crim. P. 21(b), section 16-6-201, C.R.S.
2018, and Canon 3 of the Code of Judicial Conduct).
f 35 In ruling on the sufficiency of a motion for
disqualification, a judge must accept the factual
statements contained in the motion and affidavits as
true and determine as a matter of law whether they
allege legally sufficient facts for disqualification. S.S. v.
Wakefield, 764 P.2d 70, 73 (Colo. 1988). Where the
motion and supporting affidavits merely allege
opinions or conclusions, unsubstantiated by facts
supporting a reasonable inference of actual or
apparent bias or prejudice, they are not legally
sufficient to require disqualification. Id.

App.15
B. Analysis
% 36 Mulcahy raises three arguments to support his
claim that Judge Seldin should have disqualified
himself.
K 37 First, Mulcahy contends that he is a Republican
while the judge and the family that owns Skico are
Democrats. But the fact that a judge shares a political
affiliation with one party and not the other is not
grounds for disqualification, because courts presume
that judges are able to resist partisan political pressure
and have a duty to do so. See People v. Vecchio, 819
P.2d 533, 535 (Colo. App. 1991) (declining to conclude
that the trial court judge should have been disqualified
because of alleged political pressure); see also C.J.C.
2.4(B).
If 38 Second, Mulcahy contends that because the judge
had ruled against him in a previous, unrelated case,
the judge should have disqualified himself. But a
judge’s unfavorable rulings against a party are not
grounds for disqualification. Goebel v. Benton, 830 P.2d
995 (Colo. 1992) (rejecting the contention that a
judge’s delay and unfavorable rulings were bases for
disqualification); People in Interest ofS.G., 91 P.3d 443,
448 (Colo. App. 2004) (“[A] judge is not disqualified for
presiding over an earlier unrelated case involving the
same party.”).

App.16
f 39 Third, Mulcahy contends that because the judge
was a member of the Society of Fellows of the Aspen
Institute periodically over a fourteen-year period, and
because a member of the family that owns Skico is the
chair of the Aspen Institute’s Board of Trustees, the
judge’s disqualification was required. This, too, is an
insufficient ground to require disqualification. People
v. Julien, 47 P.3d 1194,1196 (Colo. 2002) (concluding
that the trial judge’s former affiliation with a
government agency was not a sufficient basis for
disqualification in a case in which that government
agency was a party). Further, the judge’s past
affiliation here is with an intermediary — the Aspen
Institute — and not with Skico itself.
f 40 Mulcahy speculates about the family that owns
Skico and its wealth and influence, as well as the
Aspen Institute and its wealth and influence. But mere
speculation is not grounds for disqualification. See
People v. Drake, 748 P.2d 1237,1249 (Colo. 1988)
(mere speculative statements and conclusions are not
enough to establish a judge’s bias).
If 41 It cannot be reasonably inferred from Mulcahy’s
factual allegations that the judge was prejudiced or
biased, or appeared to be. See Johnson, 674 P.2d at
955-56. We conclude that the judge did not abuse his
discretion by declining to disqualify himself.

i

App.17
V. Conclusion
1[ 42 The judgment is affirmed.
JUDGE TAUBMAN and JUDGE FOX concur. BY THE
COURT: Alan M. Loeb Chief Judge Dated September
27, 2018

App.18

APPENDIX B

District Court, Pitkin County, Colorado 506 East Main
Street, Suite E Aspen CO 81611

Plaintiff(s): LEE MULCAHY

Vs.

Defendant(s): PAULA & JAMES CROWN, et al. Case
2012CV97

ORDER RE: DEFENDANT ASPEN SKIING
COMPANY’S MOTION TO DISMISS

This matter is before the Court on the above entitled
motion. Having reviewed the motion, response, reply,
the file and relevant authorities, the Court enters this

App.19
order.

Plaintiff Lee Mulcahy has filed the claims of
declaratory and injunctive relief against Defendants
Paula & James Crown and Aspen Skiing Company
(collectively “ASC”) alleging that ASC has violated his
rights to free speech. As alleged in the pleadings,
Mulcahy was once employed as a ski instructor by
ASC and was fired when he encouraged other ski
instructors to unionize, ASC has also banned Mulcahy
from entering any and all of its properties which
include ski properties that are both privately owned by
ASC and are leased from the United States
government, and also include numerous hotels,
restaurants, bars, shopping centers and other public
establishments throughout the City of Aspen. ASC has
moved to dismiss Mulcahy’s complaint for failure to
state a claim.

“Dismissal under C.R.C.P. 12(b)(5) is only
proper where the factual allegations in the complaint
cannot, as a matter of law, support the claim for
relief.” Colorado Ethics Watch v. Senate Majority
Fund; LLC, 269 P.3d 1248, 1253 (Colo. 2012). A motion
to dismiss must be denied if relief is available to the
plaintiff under any legal theory. Id. When deciding the
motion, a court must view the allegations in a light

App.20
most favorable to the plaintiff. Kelso v. Richenbaugh
Cadillac Co., 262 P.3d 1001,1003 (Colo. App. 2011).

ASC contends that the first amendment claims
must be dismissed because ASC’s properties are not
designated public forums and ASC is not a state actor.
While ASC relies primarily on federal case law to
support its position, Article II, Section 10 of the
Colorado Constitution provides greater protections for
free speech than does the First Amendment. Bock v.
Westminster Mall Co., 819 P.2d 55, 59 (Colo. 1991). In
Brock (sic), the Colorado Supreme Court held that the
free speech protections of Article II, Section 10
applied to a privately owned shopping mall. In so
doing, the court based its holding on the fact that there
was governmental involvement with the mall’s
operation and the mall also functioned as a
“downtown business district.” Id. at 61-2.

Ultimately, Article II, Section 10 not only
guarantees the right to free speech as to public entities
but also regarding “certain exercises of private power.”
Id. at 60. THe degree of governmental involvement
with a private enterprise is determined based on the
“framework of the peculiar facts or circumstances
present.” Id. “Only by sifting facts and weighing
circumstances can the nonobvious involvement of the

App.21
State in private conduct be attributed its true
significance.” Id. at 60-1.

Here, Mulcahy alleges that ASC has banned him
from its properties because he encouraged his fellow
employees to unionize. He also alleges that ASC holds
much of its ski properties as a tenant of the federal
government and that it also owns nearly 50% of the
commercial property in and around downtown Aspen.
When these allegations are construed in a light most
favorable to Mulcahy, the Court finds that he has
alleged facts which, if true, could support a free
speech claim under Article n, Section 10 to the extent
that ASC may qualify as a “downtown business
district” under Bock. Ultimately, the merits of
Mulcahy’s claim will depend on the totality of the
circumstances which cannot be weighed or
determined on the pleadings. As such, the Court will
deny ASC’s motion. For the same reasons, the Court
will also deny Mulcahy’s request for a judgment on the
pleadings.

Based on the foregoing, IT IS ORDERED that
ASC’s Motion to Dismiss is denied. ASC’s request for
its attorney fees is also denied.

App.22

Dated this 3 day of October, 2012.

BY THE COURT

Thomas W. Ossola

Senior District Court Judge

App.23

APPENDIX C

COLORADO SUPREME COURT CASE
ANNOUNCEMENTS

No. 19SC100, Court of Appeals Case No. 17CA1010

Petitioner: LeeMulcahy

V.

Respondent: Aspen Ski Company

Petition for Writ of Certiorari DENIED. EN BANC.

August 19, 2019

v-'-

V

DATE FILED: September 4, 2019

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to Court of Appeals, 2017CA1010
District Court, Pitkin County, 2012CV97
Petitioner:

Supreme Court Case No:
2019SC100

Edward Lee Mulcahy, Jr.
v.

Respondent:
Aspen Skiing Company.
ORDER OF COURT

Upon review of the Petition for Rehearing filed in the above cause, and now
being sufficiently advised in the premises,
IT IS ORDERED that said Petition for Rehearing is DENIED. C.A.R.
40(c)(3) (No petition for rehearing may be filed after denial of a petition without
explanation).
BY THE COURT, SEPTEMBER 4, 2019.

1909040063 1861 78-1005 2

1

